Supreme Court, U.S.
FILED

WAIVER

OCT 1 5 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-477

Shanika Day, et al.

Franklin Wooten, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

10/15/2020

(Type or print) Name

Adam S. Willfond
Mr.

Firm

El Mrs.

❑ Miss

Office of Corporation Counsel

Address

200 E. Washington Street, Suite 1601

City & State
Phone

❑ Ms.

Indianapolis, IN

317.327.4055

Zip
Email

46204

adann.willfond@indy.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Nathaniel Lee; Faith Alvarez

RECEIVED
OCT 2 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

INDIANAPOLIS
MAYOR JOE HOGSETT
Osr. is2a

October 15, 2020
VIA FEDEX
Clerk of the Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

RE:

Shanika Day, et al. v. Franklin Wooten, et al.;
Case No. 20-477

Dear Honorable Clerk:
Please find enclosed the Respondents' waiver of response concerning the Petitioners'
petition for a writ of certiorari in the above referenced case. The Respondents
respectfully request that their waiver be filed electronically on the docket and that the
petition be distributed to the Court under Rule 15.5 as soon as practicable. Should you
have any questions, please contact me.
Very truly yours,

Adam S. Willfond
Counsel for Respondents

RECEIVED
OCT 21 2020
FFICE OF TI-1.4 CLERK
SUPREME COURT, U.S:

Enclosure (Waiver of Response)
cc: Nathaniel Lee; Faith E. Alvarez; John F. Kautzman; Andrew R. Duncan; Edward. J.
Merchant; Martin A. Brown (via email)

THE CITY OF
INDIANAPOLIS

Office of Corporation Counsel
200 E. Washington Street, Suite 1601
Indianapolis, IN 46204
Phone: 317.327.4055
www.indy.gov

